                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-11-06-0025                                                                    Page 1 of 1



          OIG received infonnation that a PI l inappropriately used award2 funds 3 to pay her niece4 for 15
          hours of work the niece perfonned on the award.'

          Subsequent coordination with the university confinned the allegation and revealed one additional
          de minimis charge to the award. Subsequently, the university returned $286.35 to the award and
          issued a letter of reprimand to the PI.

          Accordingly, this investigation is closed.




NSF OIG Form 2 (11102)
